                                                    IG-98-015



        AUDIT
        REPORT

                           MANAGEMENT CONTROLS ON THE
                           EARTH SYSTEM SCIENCE BUILDING
                                 (ESSB) CONTRACT


                                     June 8, 1998




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
  Space Administration
Additional Copies

To obtain additional copies of this audit report, contact the Assistant Inspector General for
Auditing at 202-358-1232.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W
               300 E St., SW
               Washington, DC 20546

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by calling
1-800-424-9183; 1-800-535-8134 (TDD); or by writing the NASA Inspector General, P.O. Box
23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of each writer and caller can
be kept confidential, upon request, to the extent permitted by law.

Acronyms

CoF                Construction of Facilities
EOS                Earth Observing System
EOSDIS             EOS Data and Information System
ESSB               Earth System Science Building
FPIH               Facility Project Implementation Handbook
GSFC               Goddard Space Flight Center
NASA               National Aeronautics and Space Administration
NHB                NASA Handbook
NHQ                NASA Headquarters
R&D                Research and Development
USC                United States Code
W


TO:              J/ Associate Administrator for Management Systems and Facilities

                 W/Goddard Space Flight Center
                 Attn: 100/Center Director

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on Management Controls on the Earth System Science Building
                 (ESSB) Contract
                 Assignment Number A-HA-97-055
                 Report Number IG-98-015


The subject final report is provided for your use. Your comments on a draft of this report
were responsive to our recommendation. The report provides our evaluation of your
response. We consider the recommendation closed for reporting purposes.

If you have questions concerning the report, please contact Mr. Daniel J. Samoviski,
Program Director for Earth/Space Science Programs, at 301-286-0497, or Ms. Diane R.
Choma, Auditor-in-Charge at 301-286-6443. We appreciate the courtesies extended to the
audit staff. See Appendix B for the report distribution.




Russell A. Rau

Enclosure

cc:
B/Comptroller
B/Chief Financial Officer
G/General Counsel
Y/Associate Administrator for Earth Science
bcc:
GSFC/190/D. Samoviski, K. Carson, D. Choma
GSFC/201/J. Clark
                                         TABLE OF CONTENTS



BACKGROUND ...................................................................................................................... 1

OBJECTIVES, SCOPE AND METHODOLOGY .................................................................... 2

OBSERVATION AND RECOMMENDATION ...................................................................... 4

   R&D FUNDS USED TO AUGMENT CONSTRUCTION OF THE ESSB ............................................. 4

APPENDIX A - MANAGEMENT RESPONSE ....................................................................... 7

APPENDIX B - REPORT DISTRIBUTION ............................................................................ 8
BACKGROUND

                                 The Earth System Science Building (ESSB) is a 237,000 gross
                                 square foot structure presently under construction on the Goddard
                                 Space Flight Center’s (GSFC) East Campus. The ESSB will
                                 provide technical facilities and support space to adequately conduct
                                 interdisciplinary Earth science research on a worldwide scale for
                                 the Earth Observing System (EOS) Program. The EOS Program
                                 has an anticipated mission duration of 15 years. The GSFC will be
                                 responsible for the collection, processing, storage, and distribution
                                 of more than 15,000 terabytes1 of data as well as the design and
                                 development of satellite instruments and computer algorithms for
                                 Earth observation. To achieve this mission, the GSFC must
                                 provide a facility to foster interdisciplinary science among all Earth
                                 science disciplines. To meet these goals, the ESSB will consolidate
                                 all personnel from the GSFC’s Earth Sciences Directorate, in
                                 addition to providing space for personnel from the National
                                 Academy of Sciences/National Research Council, university post-
                                 doctoral candidates, contractors, and visiting scientists and
                                 students.

                                 GSFC awarded a $36.5 million firm-fixed-price contract for
                                 construction of the ESSB to the Manhattan Construction Company
                                 on September 25, 1995. Under the terms of the contract,
                                 Manhattan Construction Company will furnish all management,
                                 labor, materials, equipment, and supervision necessary to provide
                                 site development, utilities installation, and construction of the
                                 ESSB. Construction of the ESSB is scheduled for completion on
                                 June 23, 1998.

                                 The ESSB Project Management Plan outlines organizational
                                 responsibilities from planning to final acceptance. At NASA
                                 Headquarters (NHQ), the Office of Earth Science, Code Y, has
                                 overall programmatic responsibility for earth science enterprise
                                 activities at GSFC. The NHQ Facilities Engineering Division,
                                 Code JX, verifies the facility requirements with the Office of Earth
                                 Science, monitors the project planning and progress to ensure that
                                 the program activities are properly supported, and coordinates
                                 funding availability to meet the approved schedules. At the GSFC,
                                 the Facilities Management Division has established a multi-
                                 discipline ESSB Project Team responsible for project execution
                                 from planning through initial operation of the facility.



1
    A terabyte is 1,000 gigabytes or 1 million megabytes (10 to the 12th power).


                                                    1
OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES       The overall audit objective is to determine whether management
                 controls on the ESSB contract are adequate to ensure the facility
                 will meet EOS Program requirements. Specific objectives are to
                 determine whether:

                      (1) The building will be completed on time and within
                          budgeted cost.

                      (2) Appropriate actions have been taken or are planned to
                          address the effects of NASA downsizing and EOS
                          Program changes.

SCOPE AND        We performed this audit because of problems reported in Report
METHODOLOGY      No. IG-97-014, “Earth Observing System Data and Information
                 System (EOSDIS) Facility Construction Contract Management,”
                 February 7, 1997. The EOSDIS was the first (ESSB is the second)
                 of two facilities constructed at GSFC in support of the EOS
                 Program. The EOSDIS audit showed that the facility contract had a
                 significant number of change orders that were not definitized in a
                 timely manner and that about half of the contract modifications
                 were caused by design errors, omissions, or conflicts. This audit on
                 the ESSB contract was performed to determine whether similar
                 problems were occurring.

                 The scope of this audit included reviewing:

                        •   ESSB contract with Manhattan Construction Company
                            (NAS5-35163),

                        •   progress payments made to the contractor,

                        •   ESSB Partnering Charter,

                        •   contract modifications and definitization schedule, and

                        •   NASA Facility Project – Brief Project Document.

                 Also, we interviewed various personnel from the GSFC and NHQ
                 concerning the ESSB construction contract. In addition, we
                 interviewed personnel from the prime contractor and several
                 subcontractors.




                                   2
MANAGEMENT          The significant management controls reviewed include:
CONTROLS REVIEWED
                           •   ESSB Project Management Plan, dated October 1995;

                           •   NASA progress payment procedures;

                           •   architect and engineering liability process;

                           •   deficiency identification     documentation    resolution
                               process; and

                           •   “Facility Project Implementation Handbook,” NASA
                               Handbook (NHB) 8820.2A, dated July 1993.

                    Overall, management controls were sufficient. We did, however,
                    identify a weakness in the area of construction funding. This
                    weakness is discussed in detail in the Observation and
                    Recommendation section of the report.

AUDIT FIELD WORK    Audit fieldwork was conducted from June through December 1997
                    at the GSFC and NHQ. We performed the audit in accordance
                    with generally accepted government auditing standards.




                                      3
OBSERVATION AND RECOMMENDATION

OVERALL EVALUATION             The audit showed that management controls are in place on the
                               ESSB contract to ensure that EOS program requirements are met.
                               In addition, the ESSB is currently within budget and on schedule.
                               The original building plans were rescoped, but not because of
                               NASA downsizing or EOS program changes.2 The audit did
                               identify that ESSB partitions were installed with the inappropriate
                               use of NASA Research and Development (R&D) funds. GSFC
                               management needs to take steps to correctly fund the partition
                               installation from the Construction of Facilities (CoF) budget.

R&D FUNDS USED                 NASA R&D funds were improperly used to install partitions in the
TO AUGMENT                     ESSB at the GSFC. The partitions were classified as facility
CONSTRUCTION                   outfitting by GSFC management personnel in order to justify the
                               use of R&D funds and bypass the NHQ approval process. These
OF THE ESSB
                               partitions do not meet the description of outfitting as defined in
                               NASA’s NHB 8820.2A because they were completed during the
                               construction phase and are permanent fixtures. As a result,
                               approximately $385,000 of R&D funds was used inappropriately
                               for completing construction of partitions in the ESSB.

CoF Funds Requested For        NASA asked Congress to provide funding for ESSB construction
Construction Of ESSB           under the CoF appropriation. A total of $46 million of CoF funds
                               was provided for “Construction of Earth System Science Building”
                               at the GSFC in NASA’s fiscal year 1994, 1995, and 1996
                               appropriations. NASA was separately provided R&D funds in its
                               fiscal year 1994, 1995, and 1996 appropriations for the EOS
                               program.

Original Construction          Original plans for the ESSB prior to contract award called for
Contract Included              approximately 100 two- and four-person offices with the option of
Partitions for Two- and        turning those 100 offices into approximately 200 one- and two-
Four-Person Offices            person offices. Prior to the contract being awarded to the
                               Manhattan Construction Company, the option for the one- and
                               two-person offices was eliminated as part of a cost-savings
                               measure. The awarded contract did, however, include installing
                               partitions for the approximately 100 two- and four-person offices.

                               The partitions creating these offices are constructed of drywall and
                               metal studs and run from floor to ceiling. The partitions also
                               include a door, receptacle, light switch, supply diffuser, and return
                               register for each office created. This installation was completed
                               under the prime contract and was CoF funded.


      2
          The ESSB was rescoped because of increased prices reflected in the initial bids.


                                                  4
R&D Funds Used to Fund      Once construction on the ESSB began, the Deputy Director of
Contract Modification for   GSFC’s Earth Sciences Directorate requested that a contract
Additional Partitions       modification be initiated and that all the office partitions be installed
                            to create the one- and two-person offices. The Earth Sciences
                            Directorate used about $385,000 of R&D funds to finance the
                            modification and have the remaining partitions installed. The
                            Directorate justified the use of R&D funds by classifying the
                            additional partitions as facility outfitting. However, because the
                            partitions added time and money to the construction contract, they
                            do not meet the NHB 8220.2A criteria for R&D funding as
                            outfitting. NHB 8220.2A states that “facility outfitting begins
                            when the construction of a facility project or a portion of a facility,
                            such as a work package or a specific area, is complete and has been
                            accepted by the Government.”             Facility outfitting includes
                            installation of data systems, systems furniture, and telephones;
                            furniture and personnel move-in; and maintenance services startup.
                            This installation is clearly being completed during construction. As
                            a result, one half the partitions in the ESSB were funded with CoF
                            funds while the other one half were inappropriately paid for with
                            R&D funds.

Approval to use R&D         Documentation obtained during the audit indicated that the request
Funds was not Obtained      to modify the contract to install the remaining office partitions was
                            not forwarded to or approved by the NHQ Facilities Engineering
                            Division, because GSFC management responsible for the ESSB
                            project assumed that a request for additional CoF funds would not
                            be approved. The ESSB Project Management Plan states that
                            project changes considered to be within the scope of work as
                            defined by the Congressional Budget Document and supporting
                            project documentation, and which are greater than $250,000, need
                            internal GSFC approval as well as NHQ, Code JX, and Code Y
                            approval. By classifying the additional partitions as facility
                            outfitting and using R&D funds, the NHQ approval process was
                            bypassed. There are sufficient unobligated CoF funds to permit
                            proper charging of the $385,000 to that appropriation without
                            causing a potential violation of the Antideficiency Act.

Summary                     In summary, installation of one half of the ESSB’s office partitions
                            was inappropriately paid for with R&D funds when CoF funds
                            should have been used. Use of R&D funds for partition installation
                            has resulted in about $385,000 being unavailable for its intended
                            purpose. In our opinion, this unavailability could be interpreted as
                            a violation of 31 United States Code (USC) section 1301(a), which
                            states that “appropriations shall be applied only to the objects for
                            which the appropriations were made except as otherwise provided
                            by law.” Management actions to address this condition will ensure




                                                5
                        that only CoF funds are used to construct the ESSB and that R&D
                        funds are used for their intended purpose, which in turn will result
                        in compliance with 31 USC 1301.

RECOMMENDATION 1        The GSFC Facilities Management Division Chief should request
                        that the GSFC Comptroller return $385,000 to the Earth Sciences
                        Directorate’s R&D account and fund the ESSB partition
                        installation from the CoF budget.

Management’s Response   Concur. NASA management agreed to fund the $385,000
                        modification for additional partitions from the ESSB facility project
                        funds. Doing so will eliminate any potential concerns about
                        possible impropriety associated with funding the facility. Also,
                        management stated that the funding for the partitions was from the
                        same appropriations as the facility funding. Therefore, the
                        misallocation in the original action is not a violation of 31 USC
                        1301(a). The complete text of management’s comments is in
                        Appendix A.

Evaluation of           The actions planned are considered responsive to the intent of the
Management’s Response   recommendation, and we agree that there is no violation of 31 USC
                        1301(a).




                                           6
                                                                                    Appendix B
REPORT DISTRIBUTION
National Aeronautics and Space Administration (NASA) Officials-In-Charge

Code A/Office of the Administrator
Code AD/Deputy Administrator
Code B/Chief Financial Officer
Code B/Comptroller
Code G/General Counsel
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code Y/Associate Administrator for Earth Science

NASA Offices of Inspector General

Ames Research Center
Dryden Flight Research Center
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space
Special Counsel, House Subcommittee on National Security, International Affairs, and Criminal
   Justice

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science and Transportation
Senate Subcommittee on Science, Technology and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations


                                                8
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics




                                          9
MAJOR CONTRIBUTORS TO THE REPORT
Daniel J. Samoviski   Program Director for Earth/Space Science Programs

Kevin J. Carson       Director, Audit Quality

Diane R. Choma        Auditor-in-Charge, Goddard Space Flight Center

Clara Lyons           Auditor, Lewis Research Center

Iris Purcarey         Program Assistant, Goddard Space Flight Center
                           Appendix A
NASA MANAGEMENT RESPONSE




           1
